                                  I'IATfOf\.IACS-CIENC-E'FOUNDATIO'"'N-.----------.--------- - -- - - - -
                                       4201 WILSON BOULEVARD
                                      ARLINGTON, VIRGINIA 22230




                                                                                                     )
    OFFICE OF THE
   DEPUTY DIRECTOR




VIA CERTIFIED MAIL/RETURN RECEIPT REQUESTED




       Re: Notice of Debarment


Dear

On                       , the National Science Foundation (''NSF") issued to you a Notice of
Proposed Debarment and Notice of Research Misconduct Determination ("Notice"), in which
NSF proposed to debar you from directly or indirectly obtaining the benefits of Federal grants
for a period of five years. As reflected in the Notice, NSF proposed your debarment for
submitting a dissertation to                  that contained plagiarized material. In that Notice,
NSF provided you with thirty days to respond to the proposed debarment.

Over thirty days have elapsed and NSF has not received a response. A closer review of the
investigative report, however, demonstrates that NSF's Office oflnspector General ("OIG")
recommended that NSF debar you for three years, as opposed to five years. We accept the
OIG's recommendation. Accordingly, you are debarred until                      ..

Debarment precludes you from receiving Federal financial and non-financial assistance and
benefits under non-procurement Federal programs and activities unless an agency head or
authorized designee makes a determination to grant an exception in accordance with 2 CFR
180.135. Non-procurement transactions include grants, cooperative agreements, scholarships,
fellowships, contracts of assistance, loans, loan guarantees, subsidies, insurance, payments for
specified use, and donation agreements.

In addition, you are prohibited from receiving Federal contracts or approved subcontracts under
the Federal Acquisition Regulations at 48 CFR Subpart 9.4 for the period of this debarment. 2
CFR 180.925. During the debarment period, you may not have supervisory responsibility,
primary management, substantive control over, or critical influence on, a grant, contract, or
cooperative agreement with any agency of the Executive Branch of the Federal Government.
                                                                                             - 2 -
Lastly, please note that, in the Notice, NSF also took the following actions against you, which
continue to remain in effect:

   •    From the end of your debarment period through                       , you are required to
        submit certifications to NSF's Office of Inspector General that any proposals or reports
        you submit to NSF do not contain plagiarized, falsified, or fabricated material.

    •   From the end of your debarment period through                       , you are required to
        submit assurances by a responsible official of your employer that any proposals or reports
        you submit to NSF do not contain plagiarized, falsified, or fabricated material. These
        assurances must be submitted to NSF's Office oflnspector General.

    •   You are prohibited from serving as an NSF reviewer, advisor, or consultant through
                          ; and

    •   You are required to complete a comprehensive responsible conduct of research training
        course by                   , and provide documentation of the program's content to the
        OIG. The instruction should be in an interactive format (e.g., an instructor-led course,
        workshop, etc.) and should include a discussion of plagiarism and proper citation
        practices.

All certifications, assurances, and training documentation should be submitted in writing to
NSF's OIG, Associate Inspector General for Investigations, 4201 Wilson Boulevard, Arlington,
VA 22230.

Should you have any questions regarding the foregoing, please c o n t a c t - · Assistant
General Counsel, at (703) 292-8060.




                                                      Sincerely,



                                                      Cora B. Marrett
                                                      Deputy Director
·----------------NA+IONAb-SGIENCS-I:'OUNDA+ION-------------
                                            4201 WILSON BOULEVARD
                                           ARLINGTON, VIRGINIA 22230




          OFFICE OF THE
         DEPUTY DIRECTOR



     CERTIFIED MAIL --RETURN RECEIPT REQUESTED




             Re: Notice of Proposed Debarment and Notice ofResearch Misconduct Determination

     Dear

     As a graduate student at                 ("University"), you received funding from the National
     Science Foundation ("NSF" or the "Foundation") under two separate awards in"""'",...,...,
     work at the              In 20        submitted a dissertation entitled,
                                                                          in partial fulfillment of the
     requirements for a doctorate degree in philosophy. As documented in the attached investigative
     report prepared by NSF's Office of Inspector General ("OIG"), your dissertation contained
     plagiarized material.

     In light of your misconduct, this letter serves as formal notice that NSF is proposing' to debar you
     from directly or indirectly obtaining the benefits of Federal grants for five years. During your
     period of debarment, you will be precluded from receiving Federal financial and non-financial
     assistance and benefits under non-procurement Federal programs and activities. In addition, you
     will be prohibited from receiving any Federal contracts or approved subcontracts under the
     Federal Acquisition Regulations ("FAR"). Lastly, during your debarment period, you will be
     barred from having supervisory responsibility, primary management, substantive control over, or
     critical influence on, a grant, contract, or cooperative agreement with any agency of the
     Executive Branch of the Federal Government.

     In addition to proposing your debarment, I am prohibiting you from serving as an NSF reviewer,
     advisor, or consultant to NSF until                     . Furthermore, for five years from the
     expiration of your debarment period, I am requiring that you submit certifications, and that a
     responsible official of your employer submit assurances, that any proposals or reports you submit
     to NSF do not contain plagiarized, falsified, or fabricated material. Lastly, you must complete a
     comprehensive responsible conduct of research training course by                        , and
     provide documentation of the program's content to the OIG. The instruction should be in an
     interactive format (e.g., an instructor-led course, workshop, etc.) and should include a discussion
     of plagiarism and proper citation practices.
[,,


I
                                                                                                   Page2
I
       Research Misconduct and Sanctions other than Debarment

      Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification, or
      plagiarism in proposing or performing research funded by NSF ... " 45 CFR § 689.1(a). NSF
      defmes "plagiarism" as "the appropriation of another person's ideas, processes, results or words
      without giving appropriate credit." 45 CFR § 689.l(a)(3). A finding of research misconduct
      requires that:

              (1) There be a significant departure from accepted practices of the relevant research
                  community; and
              (2) The research misconduct be committed intentionally, or knowingly, or recklessly;
                  and
              (3). The allegation be proven by a preponderance of evidence.

      45 CFR § 689.2(c).

      Your dissertation contained a substantial amount of verbatim and paraphrased material copied
      from another student's doctoral dissertation. By submitting a dissertation that copies the ideas or
      words of another without adequate attribution, as described in the OIG investigative report, you
      misrepresented someone else's work as your own. In addition, you failed to properly
      acknowledge or credit the author of the source disse1iation in your dissertation. Your conduct
      unquestionably constitutes plagiarism. I therefore conclude that your actions meet the applicable
      definition of"research misconduct" set forth in NSF's regulations.

      Pursuant to NSF's regulations, the Foundation must also determine whether to make a finding of
      misconduct based on a preponderance of the evidence. 45 CFR § 689.2(c). After reviewing the
      Investigative Report, NSF has determined that, based on a preponderance of the evidence, your
      plagiarism was committed intentionally and constituted a significant departure from accepted
      practices of the relevant research community. I am, therefore, issuing a finding of research
      misconduct against you.

      NSF's regulations establish three categories of actions (Group I, II, and III) that can be taken in
      response to a finding of misconduct. 45 CFR § 689.3(a). Group I actions include issuing a letter
      of reprimand; conditioning awards on prior approval of particular activities from NSF; requiring
      that an institution or individual obtain special prior approval of particular activities from NSF;
      and requiring that an institutional representative certify as to the accuracy of reports or
      certifications of compliance with particular requirements. 45 CFR §689.3(a)(l). Group II
      actions include award suspension or restrictions on designated activities or expenditures;
      requiring special reviews of requests for funding; and requiring correction to the research record.
      45 CFR §689.3(a)(2). Group III actions include suspension or termination of awards;
      prohibitions on participation as NSF reviewers, advisors or consultants; and debarment or
      suspension from participation in NSF programs. 45 CFR § 689.3(a)(3).
                                                                                             Page-3
In determining the severity of the sanction to impose for research misconduct, I have considered
the seriousness of the misconduct; our determination that it was committed intentionally; the fact
that the misconduct was an isolated incident; and the fact that your misconduct had no impact on
the research record. I have also considered other relevant circumstances, such as the fact that
you had to transition to another advisor when your initial advisor was denied tenure, and abruptly
left the University. See 45 CFR § 689.3(b).

Based on the foregoing, I am imposing the following actions on you:

    e   For five years from the end of your deba1ment period, you are required to submit
        certifications that any proposals or reports you submit to NSF do not contain plagiarized,
        falsified, or fabricated material.

   •    For five years from the end of your debarment period, you are required to submit
        assurances by a responsible official of your employer that any proposals or reports you
        submit to NSF do not contain plagiarized, falsified, or fabricated material.

   •    From the date of this letter through                   , you are prohibited from serving
        as an NSF reviewer, advisor, or consultant.

   •    You are required to complete a comprehensive responsible conduct of research training
        course by                   , and provide documentation of the program's content to the
        OIG. The instruction should be in an interactive format (e.g., an instructor-led course,
        workshop, etc.) and should include a discussion of plagiarism and proper citation
        practices.

All certifications, assurances, and training documentation should be submitted in writing to
NSF's Office oflnspector General, Associate Inspector General for Investigations, 4201 Wilson
Boulevard, Arlington, Virginia 22230.


Debarment

Regulatory Basis for Debarment

Pursuant to 2 CFR 180.800, debarment may be imposed for:

        (b)    Violation of the terms of a public agreement or transaction so serous as to affect
               the integrity of an agency program, such as -

               ( 1)   A willful failure to perform in accordance with the terms of one or more
                      public agreements or transactions;
                                                                                             Page4
                (3)    A willful violation of a statutory or regulatory provision or requirement
                       applicable to a public agreement or transaction; or

        (d)    Any other cause of so serious or compelling a nature that it affects your present
               responsibility.


In any debarment action, the government must establish the cause for debarment by a
preponderance ofthe evidence. 2 CFR 180.850. In this case, you intentionally plagiarized
material in a dissertation that was funded, in part, by NSF. Thus, your action supports a cause for
debarment under 2 CFR 180.800(b).


Length ofDebarment

Debarment must be for a period commensurate with the seriousness of the causes upon which an
individual's debarment is based. 2 CFR 180.865. Generally, a period of debarment should not
exceed three years but, where circumstances warrant, a longer period may be imposed. 2 CFR
180.865. Having considered the seriousness ofyour actions, as well as the relevant aggravating
and mitigating factors set forth in 2 CFR 180.860, we are proposing your debarment for five
years.


Appeal Procedures for Finding of Research Misconduct and Procedures Governing
Proposed Debarment

Appeal Procedures for Finding of Research Misconduct

Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal of this
finding; in writing, to the Director of the Foundation. 45 CFR 689.10(a). Any appeal should be
addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
Arlington, Virginia 22230. If we do not receive your appeal within the 30-day period, the
decision on the finding of research misconduct will become final. For your information, we are
attaching a copy of the applicable regulations.


Procedures Governing Proposed Debarment

The provisions of2 CFR Sections 180.800 through 180.885 govern debarment procedures and
decision-making. Under our regulations, you have 30 days after receipt of this notice to submit,
in person or in writing, or through a representative, information and argument in opposition to
this debarinent. 2 CFR 180.820. Comments submitted within the 30-day period will receive full
consideration and may lead to a revision of the recommended disposition. If NSF does not
receive a response to this notice within the 30-day period, this debarment will become final.
                                                                                        Page 5
Any response should be addressed to Lawrence Rudolph, General Counsel, National Science
Foundation, Office of the General Counsel, 4201 Wilson Boulevard, Room 1265, Arlington,
Virginia 22230. For your information, we are attaching a copy ofthe Foundation's regulations
on non-procurement debarment and FAR Subpart 9.4.


Should you have any questions about the foregoing, please c o n t a c t - · Assistant
General Counsel, at (703) 292-5054.



                                                  Sincerely,




                                                  Cora B. Marrett
                                                  Deputy Director



Enclosures:
Investigative Report
Nonprocurement Debarment Regulations
FAR Regulations
45 CFR Part 689
CONFIDENT~UL~-------------------------------------------CDNFIDENTal----.




       National Science Foundation
         Office of Inspector General




                       Confidential
                  Report of Investigation
                 Case Number A-11060047
                                                  6 July 2012
                               .. ·.. :,.···   ...,   ·.·.:·.;   :,·.::.··..   ..   ·..   :··..   .:.:.··   .. .   . . . . . ..


                 ThiS C()nfideritial ]leport ofinvestlgationls •provi4ed to you
                                 FOROFFICIALUSE ONLY.
 I(corit~insyro~ectedpersonal·i~forniatio!l,'th~,,,umiuthorize4.discldsure·of.whic~• :lnayl"esultin
 p~rsonalcriminal)iabiliij lplderth~· Priyacy,Act, ,5 u~~.c.; . § 5S,2a. .This report may Befl1rth~~
 disclosed; within,. N~~ only ,,,t(),. individuals i wh? ···l1l~st h~y~ :lffio'Yle~e ,,?f its contents to
 facilitate NSF's .al)ses~~ent and. resolution of this lllatter; ,'Jbi~ report may be disclosed                         ,
 outsid~':.~SF,,.onlylinder,Jl1e,greedo1ll,.·of Infommtiof1.;a!la.privacy'•A~ts,:5U.S;.c.. §§ . 552'•·&
 552a,~ Please tak~. appr()priate precautions handling this confidential report, of j~yestigation~

                                                                                                                                  NSF OIG Form 22b (12/10)
CONFIDENTIAL                                                        CONFIDENTIAl:


                                   Executive Summary

Allegation:         Plagiarism in the Subject's NSF-supported dissertation.

Inquiry:            The University conducted an inquiry and determined the need for a detailed
                    investigation. The University informed us of its intention to proceed. We
                    reviewed the University inquiry report and referred an investigation to the
                    University.

University          The University completed an investigation finding that the Subject
Investigation and   committed intentional plagiarism that was a significant departure from the
Action:             accepted practices of the graduate student community. The University is
                    taking steps to rescind the Subject's doctoral degree.

OIG's Assessment:   •    The Act: The Subject copied ~1,255 lines of text, 98 embedded
                         citations to 97 embedded references, 58 spectra and 84 other embedded
                         objects into his dissertation from another student's dissertation.
                    •    Significant Departure: The copying was a significant departure from
                         the accepted practices of the relevant research community.
                     •   Intent: The Subject acted intentionally (purposefully).
                     •   Standard of Proof: The preponderance of the evidence supports a
                         finding of research misconduct.
                     •   Pattern: There is no evidence to support a pattern of misconduct
                         beyond the dissertation.

OIG                  •  A finding of research misconduct.
Recommendation:      •  A letter of reprimand.
                     •  Require the subject to certify completion ofRCR training within 1 year
                        of the finding.
                     • Debar the Subject for 3 years.
                     • For 5 years after the debarment:
                       o Require the Subject to provide certifications and assurances; and
                       o Bar the Subject from serving as an NSF reviewer, advisor, or
                           consultant.




                                                                                                 1
CUNFIDENTIA                                                                      CONFIDENTIAl:


                               The University's and OIG's Inquiries

        The University 1 notified us that it had completed an inquiry into an allegation that a
former graduate student (the Subject) 2 had copied another student's dissertation (Student 1) 3 into
his dissertation. Both the Subject and Student 1 were doctoral students of Advisor 1. 4 The
Subject completed his dissertation under Advisor 2 5 approximately 3 years after Student 1 and
sometime after Advisor 1left the University. The Subject asserted in the University inquiry:

                As in many research groups target projects are worked on
                simultaneously by several people in collaboration thus it may be
                difficult for someone that is not familiar with the project or the
                research group to determine the exact contributions apart from one
                another if they did not witness the intimate workings of the project
                as it was being conducted. I believe this to be the case regarding
                these allegations of research misconduct that have been brought
                against me. In no uncertain terms I labored exhaustively during the
                time I attended [the University] and due to extenuating
                circumstances and the corresponding complications for graduate
                students that come with their primary investigator/advisor not
                being granted tenure.[ 6l

The Subject had left his lab notebooks at the University when he graduated, but he was unable to
produce electronic drafts or other files at the request of the University. He asserted that his
laptop computer had been stolen from his postdoctoral laboratory. 7 The University inquiry
committee recommended an investigation. 8 We reviewed the inquiry report and confirmed that
the Subject had received NSF funding in support of his work at the University. 9 We concurred
that an investigation was warranted and referred the investigation to the University. 10

       Because the University identified both NSF funding and NIH funding 11 associated with
the Subject's work, we coordinated with the Department ofHealth and Human Services (DHHS)
Office of Research Integrity (ORI) and assumed the lead in this investigation.




                             report we                         page numbers, which are appear in the lower
right comer preceded by the case number. The page numbering is sequential from Tab 1 through Tab 6.
7
  Tab 1 at6-7.
8
  Tab




                                                                                                             2
                                                                           CDNFIDENTIAC


                                    The University's Investigation 12
                                                                                                13
        The University assembled an investigation committee (IC) consistent with its policy
and procedure. 14 The IC reviewed the materials assembled by the University during the inquiry
and reviewed additional materials, including other contemporaneous dissertations from
                                                                  17                     18
Advisor 1's group, 15 two published papers (Paper 116 and Paper 2 ) and instrument logs. The
                                                                                             19
IC also conducted interviews with the Subject, his research advisors (Advisor 1 and Advisor 2 ),
               20
and Student 1.

        The IC found the following:

            •    "large sections of [the Subject's] dissertation included verbatim or near-verbatim
                                                         21
                 text from [Student 1's] dissertation. "

            •    "there was no attribution to [Student 1's] dissertation in any of the sections where
                                                             22
                 the wording is verbatim or near verbatim."

             •   "Approximately 41% ofthe ... spectra in the [Subject's] dissertation were
                 reported previously in [Student 1's] dissertation and had identical numerical
                 values. These spectra were not related to joint publications [i.e., Paper 1] and no
                 attn.butwn
                         . was g1ven
                                 .     .... ,23

             •   Furthermore, some of the acquisition timestamps on the original spectra in the
                 Subject's dissertation predate his arrival at the University and contain the same
                                                                                             24
                 scanning artifacts (e.g., dust spots) as those in Student 1's dissertation.

             •   Another 20 spectra in the Subject's dissertation corresponded with spectra
                 published in Paper 1; however, these spectra did not require attribution because
                                                       25
                 the Subject is a coauthor on Paper 1.

             •   "the amount of nearly identical phrasing between [Student 1] and [the Subject]'s
                 dissertations is substantially outside the accepted standards and scientific cultural
                 bounds of acceptability at [the University] .... the degree of overlap in this case


12
   Tab 3, The University's Investigation Report and Appendixes.
13
   Tab 3.a, The University Research Misconduct Policy.
14
   Tab 3.b, The University Research Misconduct Investigation Procedure.
15
   Tab 3.e.
16
   Tab 3.f.
17
   Tab 3.g.
18
   Tab 3 at 448. Copies of the logbooks were not provided to us.
19
   Tab 3.h.
20
   Tab 3.i.
21
   Tab 3 at451.
22
   Tab 3 at 451.
23
   Tab 3 at 451.
24
   Tab 3 at 451.
25
   Tab 3 at 451.


                                                                                                         3
CONFIDENTIAL                                                               CONFIDENTDtt


                 could not be explained in terms of collaboration or joint publications. Moreover,
                 the probability of such overlap occurring spontaneously is vanishingly small." 26

             •   "Given the circumstances under which [the Subject] completed the work on his
                 dissertation and his continued insistence that the high level of identical verbiage
                 was coincidental, the Panel found that [the plagiarism] was intentional." 27

             •   The Subject had no dissertation committee members in common with Student 1,
                 thereby making recognition of the copying at the time of the Subject's defense
                 unlikely. 28

        The IC, primarily through it its interview with Student 1, established that Student 1's
dissertation was Student 1's unique expression of his contributions to the joint project under
Advisor 1. 29 The IC included as evidence Paperl and Paper 2, each identifying Student 1 as an
author. Student 1's dissertation, however, contained no appreciable copied text from either
Paper 1 or Paper 2. His responses to the IC questions indicated his understanding of the
University's expectation that his dissertation be his unique expression of his contribution to the
larger research effort. 30

        The IC noted extenuating circumstances pertinent to the allegation and its assessment.
The Subject "faced difficult circumstances when completing his dissertation. [Advisor 1] had
been denied tenure and left him to finish his project on his own." 31 The department did not
assign Advisor 2 as the Subject's formal advisor until approximately one year later; however, the
Subject had full access to funding and a lab to complete his work. The Subject's time constraint
for completing his dissertation was self-imposed by his obtaining a postdoctoral position at
another institution. 32 The IC found that these "circumstances [were] conducive to plagiarism"
but did not excuse the Subject's actions. 33

        Interview transcripts from the investigation illustrate further the particular details of the
Subject's transition from Advisor 1 to Advisor 2. Advisor 1 was denied tenure in the fall of
2004 and stayed at the University to teach through the spring of 2006 while also "moonlighting"
in the private sector. 34 When his tenure was denied, he asked those students who would not
complete their degrees with him to seek new advisors. Advisor 1 asserted his belief that the
                                                                              35
Subject had made the necessary arrangements to be advised by Advisor 2. Advisor 2 recalls
being the Subject's formal advism: for approximately 10 weeks starting in April 2006 and having
only informal contact with him otherwise. 36 Those interviewed, including the Subject, did not

26
   Tab 3 at 451.
27
   Tab 3 at 452.
28
   Tab 3 at 452.
29
   Tab 3.i at 1274-1275.
30
   Tab 3.i at 1274-1275.
31
   Tab 3 at 452.
32
   Tab 3 at 452.
33
   Tab 3 at 452.
34
   Tab 3.j at 1304.
35
   Tab 3.j at 1305.
36
   Tab 3.h at 1240.


                                                                                                       4
CONFIDENTIAL                                                                         CONFIDENTDtr-----~




identify any impediments to the Subject having more interaction with Advisor 2. Advisor 2
stated he had invited the Subject to come to his lab to work so that the Subject would not be so
isolated during the writing process. Advisor 2 received drafts from the Subject for editing and
provr"de d comments. 37

        The Subject's explanation of his transition to Advisor 2 differs. The Subject asserts that
Advisor 1 gave him an "ultimatum" to "finish the molecule" rather than instructing him to find
another group. 38 Also the Subject's account of Advisor 1's absence from the dissertation
committee differs from Advisor 2's account. The Subject asserts the absence resulted from his
inability to make contact with Advisor 1, a matter he said he took to the grievance committee. 39
In contrast, Advisor 2 indicated his impression was that the Subject did not want Advisor 1 on
his committee. 40 The University did not resolve the apparently conflicting accounts.

        The IC made three recommendations to the University, only one of which related directly
to the Subject. The IC recommended that the University rescind the Subject's doctoral degree.
The other two consisted of recommending: 1) the department review its procedures for formally
transitioning students to a new advisor when left behind by a departing untenured advisor; and
2) "the University maintain an ongoing emphasis on the education of undergraduates, graduate
students and postdoctoral fellows concerning plagiarism and research misconduct." 41

                The Subject's Comments on the University Investigation Report 42

        The Subject expressed concern that the IC failed to accord proper weight to the period of
time during which he had no formal advisor and his close working relationship with Student 1 in
conducting the research described in the copied material. He provided documentation of a stolen
laptop, and thus his email records relevant to the period under investigation, to support his
assertion that he was cooperating fully with the investigation. At the time of his response, he had
not formerly retained counsel but had been advised by counsel he had informally consulted to
assert reservation of his right to make comments to the NSF Deputy Director and request a
hearing. 43

                                          The University's Actions

       The University made a finding of intentional research misconduct warranting rescission
ofthe Subject's doctoral degree. 44 The University is currently developing a procedure to
complete that process.




37
   Tab 3.h at 1238.
38
   Tab 3.k at 1358.
39
   Tab 3.k at 1361. However, there is no documentation to support that the Subject filed a grievance.
40
   Tab 3.h at 1250.
41
   Tab 3 at 452--453.
42
   Tab 3.o.
43
   Tab at 1455
44
   Tab 3 at 445.


                                                                                                        5
CONFIDENTIAL                                                                             CONFIDENTIAL


                                    OIG's Investigation and Assessment

        We notified the Subject of our receipt of the University report and invited his comments
                                   45
as we resumed our investigation. In response, the Subject asserted his position that the
University failed to provide a fair, accurate, and complete investigation. He cited concerns about
witness credibility and bias, specifically with regard to Advisor 2. 46 He stated his intention to
provides a sealed statement to the Deputy Director in response to our Draft report. 47 The
Subject declined to provide specific details to our office with regard to what may be contained in
any sealed statement, despite two requests. 48 We have been unable to confirm any bias on the
part of Advisor 2, and have based our assessment of the University's investigation on the
evidence available to us. We have informed the Subject that he will have an opportunity to
communicate with the Deputy Director following the submission of our report.

        We have reviewed the University investigation report and conclude that the University
investigation was accurate, complete, and in accordance with reasonable procedures. 49

        A finding of misconduct requires that: (1) there be a significant departure from accepted
practices of the relevant research community, (2) the research misconduct be committed
intentionally, or knowingly, or recklessly, and (3) the allegation be proven by a preponderance of
the evidence. 50

                                                       The Act

        We concur with the University that the Subject's dissertation contains a substantial
amount of material copied without appropriate attribution from Student 1's dissertation, which
constitutes a significant-departure from the accepted practices of the relevant research
community. In his defense, the Subject asserted that working in close quarters with Student 1
and Advisor 1 resulted in commonalities in expression of the research concepts among the three
of them leading to the overlap in text between his dissertation and Student 1's.             -

        Because the Subject, Student 1, and Advisor 1 are coauthors on Paper 1, it is reasonable
to expect them to share the expression of the research as presented in Paper 1. Further, it would
be reasonable to expect this common expression of the research as it appears in Paper 1 to also
appear in the relevant sections of both the Subject's and Student 1's dissertations (e.g., Chapter 2
of the Subject's dissertation). However, neither the Subject's nor Student 1's dissertations
contain text copied from Paper 1. Rather, the majority of Chapter 2 of the Subject's dissertation
is a verbatim copy of Student 1's dissertation, which appears to be a unique expression of
Student 1's work. 51 Student 1 stated in his interview that he purposefully avoided using text
from his published works (Paper 1 and Paper 2) because the dissertation should represent his

45
   Tab 4 , Notification Letter to Subject.
46
   The Subject asserts that Advisor 2 participated as a witness for the opposing party in unrelated litigation. Tab 5,
Subject's Communications with OIG, at 1456.
47
   Tab 5 at 1455.
48
   Tab 5.
49
   45 C.F.R. 689.9(a).
50
   45 CF.R. 689.2(c).
51
   Tab 3.i at 1274-1275.


                                                                                                                         6
CDl'WIDENTIAL                                                                        CONFIDENTIAI:


independent expression of his contributions to the group's work. Thus, it appears that the only
commonality of expression is the result of the Subject's verbatim copying of Student 1's
dissertation. 52

        In considering this issue, the IC noted that the length of the verbatim passages counters
the Subject's assertions regarding common expressions among colleagues as an explanation for
the copied text. 53 The consistent use of particular descriptive phrases might demonstrate a
group's customary expression, but the copying of entire paragraphs makes the Subject's
assertion not credible.

        Further, the Subject submitted his dissertation two years and nine months after Student 1
submitted his dissertation in 2003. Some of the copied material includes reference characterized
                                                                               54
by Student 1 as "recent" results citing to sources published from 2000-2003. Although
"recent" is a subjective characterization, Student 1's use of "recent" in several of the verbatim
passages refers to publications dated in 2003 and therefore reasonably contemporaneous with his
dissertation. 55 Whereas, the characterization of these references as "recent" in the Subject's
dissertation almost three years later is more indicative of direct copying than commonalities of
expression among lab members.
                                                                                                                  56
        The large number of embedded citations (98) with associated embedded references (97)
the Subject copied from Student 1 's dissertation is further evidence of direct copying and not
commonalities of expression from working closely together. While continuation of Student 1's
work by the Subject would reasonably include reliance on the same published literature, the
exact placement of the citations and usage of the references would likely vary from author to
author with the expected variation in the text.

        The material copied but unattributed in the Subject's dissertation also includes graphical
information such as spectra and schemes. The Subject's unattributed reuse of spectra Student 1
acquired prior to the Subject's enrollment is particularly troubling and does not reasonably fall
within the gamut of collaborative work product. The IC identified 58 spectra in common
between the Subject's dissertation and Student 1's dissertation. 57 Spectra acquired on a
compound should be reasonably reproducible between experiments; however, some variability is
expected as a result of numerous factors. 58 That the spectra, as printed in both dissertations, are

52
   The IC also reviewed Student 2's dissertation (Tab 3.e). Student 2                          was also a student in
Advisor 1's group and completed his dissertation at about the same time as                    commonalities of
expression from working in close proximity could have reasonably appeared in Student 2's dissertation despite the
different focus of the work. The IC identified no such overlap in text.
53
   Tab 3 at 452.
54
   For example, Tab 3.c at 494, 497 (footnote 15), and 498.
55
   For example, Tab 3.d at 753, 757 (footnote 16 and citation to reference IOc).
56
   An embedded citation is the copied textual element (superscript or parenthetical) that directs the reader to the
bibliographic reference which the source author attributed as his source. The bibliographic reference that is copied
along with the embedded citation is an embedded reference. In previous cases it has been unnecessary to distinguish
between embedded citation and embedded references, generally using the latter term to encompass both. In the
present case, the distinction became important given the attribution style the Subject used wherein a copied citation
referred back to a previously used reference or subpart of a multiple reference bibliographic footnote.
57
   Tab 3 at451.
58
   Tab 3 at 451.


                                                                                                                   7
CDNFIDENT                                                                             CO'NFIDENTDU:


identical with respect to chemical shift and integral supports finding that the Subject has
plagiarized the data. Moreover as the IC noted, the Subject copied two spectra that were
acquired by Student 1 before the Subject entered the University. 59

        Several synthesis schemes appear in both dissertations in identical or substantively
identical form with modest additions in the Subject's dissertation. The Subject asserted that the ·
schemes are composed in large part of chemical structures drawn with a commercial software
package with standard bond lengths and angles. This is a possible, reasonable explanation for
the relative sizes and similarities of the chemical structures. However, it does not explain the
copied schemes. Even if the schemes standing apart from the copied text might not constitute
actionable misconduct, the schemes in the context of the copied text constitute an additional
element ofunattributed copying as embedded objects. 60

        Other embedded objects in this case include descriptive footnotes which are explanatory
rather than bibliographic in nature that have been copied from Student 1's dissertationY In
total, we identified 84 embedded objects.

        Thus, the preponderance of evidence supports a finding that the Subject's actions
constitute plagiarism of ~1,255lines, 98 embedded citations to 97 embedded references, 58
spectra, and 84 embedded objects.



        We concur with the University that the Subject's actions were intentional (purposeful).
The University admits its role in contributing to the "difficult circumstances" the Subject faced
with respect to his formal transition from Advisor 1 to Advisor 2. But difficult circumstances do
not mitigate the purposefulness of his actions. The Subject faced no pending change in funding
or access to laboratory space. The Subject's deadline for completing his dissertation was self-
imposed. There is no evidence to suggest that the Subject was following anyone's advice when
he copied the materials, and he apparently chose to work in isolation rather than seek such
advice. 62

        The text of the dissertation demonstrates the Subject's deliberate efforts to represent
Student 1's work as his own. The IC noted several specific instances where copied verb tenses
or pronouns suggested that the Subject was accepting credit for the work already published in
Student 1's dissertation. 63 Further, the evidence suggests that the Subject's actions were not a
matter of simple copy-and-paste. In several instances, the Subject updated references that were
"in press" at the time of Student 1's dissertation to reflect subsequent publication in the journal.

59
   Tab 3 at 451.
60
   Several of the copied schemes illustrated the work of other researchers who were cited and referenced in
Student 1's dissertation. We reviewed the cited sources to assess whether technical constraints limited the
expression of the intellectual content (Tab 6). We conclude in this case that Student 1's schemes paraphrase the
published schemes. Thus, it is reasonable to conclude that the Subject was not constrained to a particular expression
ofthe scheme.
61
   In at least two of these descriptive footnotes, prices are quoted for commercially available compounds.
62
   Tab 3.h at 1237.
63
   For example, Tab l.a at 61, 72, 91, and 93.


                                                                                                                   8
CONFIDENTIAL:                                                                        CONFIDENTIAC


The transposition of chemical shift values or missing or transposed signal assignments pointed
out by the IC indicate that the Subject manually retyped at least some portions of the material
taken from Student 1's dissertation. 64    ·


        Thus, the evidence supports finding that the Subject decided to engage in the plagiarism
with intent and purpose of completing his dissertation in order to meet his self-imposed deadline
for moving on to a postdoctoral position at another institution.

                                              Standard o[Proo[

        We conclude that the preponderance of the evidence supports finding the Subject's
actions, which significantly depart from accepted practices, constitute intentional plagiarism in a
dissertation supported by NSF funding.

                                    OIG's Recommended Disposition

       When deciding what appropriate action to take upon a finding of misconduct, NSF must
consider:
             (1) How serious the misconduct was; (2) The degree to which the
             misconduct was knowing, intentional, or reckless; (3) Whether it
             was an isolated event or part of a pattern; (4) Whether it had a
             significant impact on the research record, research subjects, other
             researchers, institutions or the public welfare; and (5) Other
             relevant circumstances. 65

                                                  Seriousness

        The Subject acted as described above for the specific purpose of receiving his doctorate
and the benefits that ultimately derive from an advanced degree. The NSF funding that
supported the Subject for his doctoral studies has the expressed purpose of enabling under-
represented groups' competitive access to benefits such as faculty positions at American
universities, colleges, and community colleges. As such, the Subject's degree surported through
the University with NSF award funds enabled him to compete for those benefits. The net result
of his plagiarism of approximately 1,25 5 lines with embedded elements will be the revocation of
the NSF-supported degree. Therefore, the purpose of the investment of funds in the Subject's
education has been undermined by the Subject's actions.

                          Degree to which the Act was Intentional (Purposeful)

       The Subject's actions appear calculated to achieve the primary purpose of completing his
doctorate and moving to a postdoctoral position. As noted by the University, the Subject had

64
   For example, Tab l.a at 172, 174, and 175.
65
   45 C.F.R. 689.3(b).
66
   At the present time, the Subject appears to be employed in                       as a senior research chemist and
is a recent inductee into the Sigma Xi Research Society. The '""''"'"t's current employer does not appear to have
federal contracts or grants.


                                                                                                                   9
L;GNFIDENT                                                                CONFIDENTIAL


imposed on himself a deadline for completing his degree. However, the threat of losing funding
or laboratory access does not appear to have been a factor in this case. We concur with the
University that the Subject "faced difficult circumstances" created in part by the University's
failure to ensure a transition between advisors. However, we agree with the IC that these
circumstances do not excuse the conduct.

                                               Pattern o[Behavior

        There is no evidence of pattern beyond the conduct described above ..

                                        Impact on the Research Record

       There appears to be no impact on the research record beyond the Subject's dissertation as
described above.

                                                   Other Factors

        The Subject declined to provide any evidence in support of his assertions with respect to
the fairness, accuracy, and completeness of the University investigation. He instead states his
intention to submit a sealed statement for the Deputy Director to accompany our report.

                                               Recommendations 67

         Based on the evidence, OIG recommends that NSF:
         • Send the Subject a letter of reprimand notifying him that NSF has made a finding of
            research misconduct. 68
         • Require the Subject to certify to the Assistant Inspector General for Investigations
            (AlGI) his completion of a responsible conduct of research training program and
            provide documentation ofthe program's content within 1 year ofNSF's finding. 69
            The instruction should be in an interactive format (e.g., an instructor-led course) and
            specifically include plagiarism and appropriate attribution of sources.
                                          70
         • Debar the Subject for 3 year.

         Furthermore, for a period of 5 years immediately following the debarment period:
         • Require for each document (proposal, report, etc.) to which the Subject contributes
             for submission to NSF (directly or through his institution),
                 o the Subject to submit a contemporaneous certification to the AlGI that the
                    document does not contain plagiarism, falsification, or fabrication. 71
                 o the Subject to submit contemporaneous assurances from a responsible official
                    of his employer to the AlGI that the document does not contain plagiarism,
                    falsification, or fabrication. 72

67
   45 C.F.R. 689.9(c)(2)(ii).
68
   A Group I action 45 C.F.R. 689.3(a)(l)(i).
69
   This action is similar to Group I actions 45 C.F.R. 689.3(a)(l).
70
   A Group ill action 45 C.F.R. 689.3(a)(3)(iii).
71
   This action is similar to 45 C.F.R. 689.3(a)(l)(iii).


                                                                                                  10
CONFIDEN1IA                                                               CDmiDENTIAL


        •    Bar the Subject from participating as a peer reviewer, advisor, or consultant for
             NSF. 73

                   The Subject's Response to OIG's Draft Investigation Report

      We provided the Subject with a draft of this investigation report and requested his
comments within 30 days. 74 The Subject did not respond. Therefore, the report remains
unchanged.




72
   A Group I action 45 C.P.R 689.3(a)(l)(iii).
73
   A Group III action 45 C.P.R. 689.3(a)(3)(ii).
74
   45 C.P.R. 689.9(c)(2)(i),


                                                                                                 11
